HHS/OIG, Audit -"Audit of Veritus' Unfunded Pension Costs
for the Period Covering 1993 Through 1996,"(A-07-04-00175)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Veritus' Unfunded Pension Costs for the Period Covering 1993 Through 1996," (A-07-04-00175)
October 14, 2004
Complete
Text of Report is available in PDF format (382 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine if the pension costs Veritus allocated to the Medicare contracts for plan
years 1993-1996 were funded in accordance with Federal requirements, and to identify and properly account for any additional
accumulated unfunded pension costs.  Veritus funded the pension costs allocable to the Medicare contracts for plan
years 1993-1996 in accordance with requirements.  However, Veritus did not correctly identify nor properly account
for its accumulated unfunded pension costs.  Thus, Veritus overstated its accumulated unfunded pension costs by $157,447
and its accumulated reassignable costs by $108,605 as of December 31, 1996.  We recommended Veritus should decrease
its accumulated unallowable unfunded costs by $157,447 and its accumulated reassignable pension costs of the Medicare segment
by $108,605 as of December 31, 1996.  Veritus agreed with our recommendations.